No. 20-464

In the Supreme Court of the United States
JAMES ROSEMOND,
Petitioner,
v.
UNITED STATES,
Respondent.
On Petition For A Writ Of Certiorari To
The United States Court Of Appeals
For The Second Circuit
CERTIFICATE OF COMPLIANCE

I, Michael Rayfield, counsel for Petitioner and a
member of the Bar of this Court, certify pursuant to
Rule 33.1(h) of the Rules of this Court that this Reply
Brief in Support of Petition for a Writ of Certiorari
contains 2,385 words, excluding the parts of the brief
that are exempted by Rule 33.1(d)
s/ Michael Rayfield
Michael Rayfield

